<html>
<title> - RENEWED ENGAGEMENT: U.S. POLICY TOWARD PACIFIC ISLAND NATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     RENEWED ENGAGEMENT: U.S. POLICY TOWARD PACIFIC ISLAND NATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

                           Serial No. 111-126

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
61-517                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a6b1ae81a2b4b2b5a9a4adb1efa2aeacef">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kurt M. Campbell, Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......    13
Mr. Derek J. Mitchell, Principal Deputy Assistant Secretary of 
  Defense, Asian and Pacific Security Affairs, U.S. Department of 
  Defense........................................................    29
Frank Young, Ph.D., Senior Deputy Assistant Administrator, Bureau 
  for Asia, United States Agency for International Development...    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     7
The Honorable Kurt M. Campbell: Prepared statement...............    18
Mr. Derek J. Mitchell: Prepared statement........................    31
Frank Young, Ph.D.: Prepared statement...........................    40

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    66
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................    68


     RENEWED ENGAGEMENT: U.S. POLICY TOWARD PACIFIC ISLAND NATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m. in 
room 1324, Longworth House Office Building, Hon. Eni 
Faleomavaega, presiding.
    Mr. Faleomavaega. The subcommittee hearing will come to 
order. This is the Committee on Foreign Affairs' Subcommittee 
on Asia, the Pacific<greek-l>, deg. and the Global Environment. 
I am joined by the distinguished ranking member of the 
subcommittee, the gentleman from Illinois, Mr. Manzullo, and 
another distinguished and senior member of the Foreign Affairs 
Committee, Congressman Chris Smith from New Jersey. Always a 
pleasure to have you, sir, join us. And also my good friend, 
the gentleman from Arizona, Mr. Jeff Flake.
    I am going to begin the hearing this afternoon with my 
opening statement, and I will then extend the same courtesy to 
my colleagues for their opening statement concerning this 
oversight hearing, entitled, ``Renewed Engagement: U.S. Policy 
Toward Pacific Island Nations.''
    On September 29th of last year, American Samoa, my little 
territory, was hit by a powerful earthquake, which struck below 
the ocean about 140 miles southwest of American Samoa, and 
about 125 miles south of the independent state of Samoa. The 
earthquake, which registered 8.3 on the Richter scale set off a 
massive tsunami with tidal waves up to 20 feet in height 
hitting these islands, including Tonga, sweeping cars and 
people out to sea as survivors fled to high ground. In American 
Samoa, many children running from home unknowingly ran in the 
direction of the tsunami.
    The neighboring islands of Samoa and Tonga were also deeply 
affected, and as we pause to remember the lives lost and the 
families impacted, I wanted to once more publicly thank 
President Barack Obama and this administration for the 
leadership shown during this tragedy. I also want to thank the 
U.S. Secretary of State, Hilary Clinton, for her unwavering 
support. At my request and the request of Congresswoman Laura 
Richardson, Secretary Clinton authorized the needed airlift of 
some 92,000 pounds of emergency supplies collected by Samoans 
and non-Samoan communities in the Los Angeles area, as well as 
from our Samoan and Tongan communities in Salt Lake City and 
St. George, Utah.
    I will note for the record the Obama administration 
continues to stand with us, and on behalf of all Samoans, I 
thank the administration for its swift response.
    Based on its statements and actions, the Obama 
administration clearly recognizes the rising importance of Asia 
and the Pacific, and has adjusted U.S. policies to reflect 
emerging realities, including enhanced engagement with the 
Pacific Island nations integral to this region.
    Despite their geographic importance--and by the way, these 
island nations comprise their exclusive economic zones that 
cover almost 31 percent of the world's surface. So they may be 
small islands with small populations, but they take up 
literally 31 percent of the earth's surface. their EEZ zones. I 
might say that I have given a little lesson on geography about 
the realities that we are faced with here in the Pacific. But 
the steadfast friendship with the United States and consistent 
partnership with us and the United Nations. Yet, for too long 
we effectively outsourced our policy making toward the Pacific 
Islands to Australia and New Zealand.
    Unfortunately, the sometimes imperious attitudes and 
actions of our friends in Canberra and Wellington toward the 
Pacific Islands have fostered a degree of resentment and 
distrust that has limited their influence as well as their 
ability to represent U.S. views and interests. In Australia's 
case, moreover, its role may now be further constrained by the 
recent election of a fragile single-seat majority coalition 
government.
    By deferring to the Foreign Ministers of Canberra and 
Wellington, we have left a vacuum in the Pacific that China has 
been only too eager to fill. And while the People's Republic of 
China can and should be a force for prosperity, stability, and 
security in the Pacific Islands region and around the globe, 
Beijing's rapid rise presents a unique set of challenges. It is 
very much in the interest of the United States to develop a 
coherent, robust, and sustained regional policy toward the 
Pacific Islands, one that recognizes and ideally compliments 
China's own rise and prominence in the Pacific.
    It was thus reassuring to hear Secretary Clinton last year, 
in her first appearance before the House Foreign Affairs 
Committee, pledge to establish, and I quote, ``a more 
comprehensive approach, American approach, to Pacific Island 
nations.'' In the 17 months since then, the administration has 
made tangible progress in meeting that pledge. Secretary of 
State Clinton just held her second annual meeting with Pacific 
Island leaders 2 days ago in New York, and I understand it went 
very well.
    Assistant Secretary of State Kurt Campbell and Assistant 
Secretary of Defense Chip Gregson also led a high-level U.S. 
delegation to the August Pacific Island Forum's post-forum 
dialogue in Vanuatu. As of this week, we have a resident 
ambassador to Palau for the first time, and at long last an 
agreement on the compact. The Defense Department is continuing 
its Pacific Partnership program to provide humanitarian and 
other assistance, which has been extremely successful. And 
unless there has been a change--and I will seek clarification 
on this in my questions--USAID will be reopening offices in 
Fiji and Papua New Guinea after a 15-year absence. I might also 
note with interest that the response that I received in talking 
to the Pacific Island nations concerning the Pacific 
Partnership initiated by our country was that it was 
tremendously successful. And I want to pose a question to my 
friends for the administration. I hope it is not going to take 
another 40 years before we have another Pacific Partnership 
program for these island countries.
    These are all important steps, and the administration 
deserves credit for seeing to it that Secretary Clinton's 
pledge has already borne fruit. But if we seek to play a role 
in the Pacific commensurate with our interests, we have far 
more to do. After so many years of U.S. neglect, Pacific Island 
nations need and deserve further tangible evidence that the 
United States is committed to enhancing its engagement with the 
region for the long term. Toward that end, I believe that we 
should institutionalize the Secretary of State's annual New 
York meeting with our Pacific Island leaders. And when the 
Secretary makes her visit to the Pacific later this year, 
postponed due to the earthquake in Haiti, I hope she will visit 
at least two Pacific Island states in addition to Australia and 
New Zealand.
    My invitation to her to stop in American Samoa still 
stands. Such a visit would support efforts to strengthen U.S.-
Pacific Island relations, as well as American Samoa's position 
as an integral member of the region. It would also give the 
Secretary a chance to thank the thousands of Samoan men and 
women who serve in the armed forces and who put their lives on 
the line every day in the most dangerous parts of the world on 
behalf of our great nation.
    American Samoans, as well as fellow citizens and residents 
of the territories of Guam, the Commonwealth of the Northern 
Marianas, and those of the Federated States of Micronesia, the 
Republic of the Marshall Islands and the Republic Palau all 
make the same sacrifices as all other members of the U.S. 
military. In fact, they serve our country in uniform at higher 
per capita rates in my understanding of fellow states and 
territories. They also suffer a greater number of casualties 
per capita. I was able to honor the sacrifice of one of our 
brave soldiers from the Federated States of Micronesia when I 
attended his funeral services in Pohnpei.
    In other areas, I believe the United States should 
institutionalize its participation in the Pacific Islands Forum 
by creating an ambassador-level position for this important 
regional organization, just as we now have for ASEAN. U.S. 
participation in the Pacific Islands Forum should also include 
Congress, and I will do my utmost to ensure that my colleagues 
make an effort to attend the next post-forum dialogue event, 
which I understand is going to be hosted by New Zealand.
    The Pacific Islands Forum is particularly important because 
it provides smaller island states a means of voicing their 
opinions independent of Australia and New Zealand, as well as 
the United States. The organization carries out its mission of 
strengthening regional cooperation and integration. Moreover, 
this organization is more inclusive than the South Pacific 
Forum--which it replaced in 2000--and currently has 15 members, 
namely, Australia, Cook Islands, FSM, Fiji, Kiribati, Nauru, 
New Zealand, Niue, Palau, Papua New Guinea, the Marshall 
Islands, Samoa, Solomon Islands, Kingdom of Tonga, Tuvalu, and 
Vanuatu; two associate members, New Caledonia and French 
Polynesia; and three observer states, Tokelau, East Timor, and 
Wallis and Futuna.
    Meanwhile, we should move quickly to ensure that President 
Obama's planned participation in the Pacific Islands Conference 
of Leaders next year in Hawaii takes place. The significance of 
America's first Pacific President attending that conference 
cannot be overstated.
    We should also enlarge the international visitors 
leadership program and other exchanges for Pacific Islanders so 
they can interact more often with their American counterparts. 
We should increase the presence of Peace Corps volunteers in 
the region, offer more Fulbright scholarships to Pacific 
Islanders, and increase funding for the U.S.-South Pacific 
scholarship program currently run under the auspices of the 
East-West Center.
    The U.S. Navy's Pacific Partnership program, which has been 
so successful, should be annualized and expanded. This past 
summer, the hospital ship Mercy treated more than 1,000 
Palauans. And two summers ago, 15,000 residents of FSM received 
medical attention. I sincerely hope that the Defense Department 
understands the value of this program, and does not make our 
friends in the region wait again for another 40 years or more.
    USAID's return to the region offers a chance to assist 
crucial country-level and regional projects, including those 
directed at the extraordinary and potentially existential 
challenges that climate changes poses to Pacific Island 
nations. The administration should seek to leverage its 
programs in global warming by complementing ongoing efforts of 
existing regional organizations such as SPREP and the 
Secretariat of the Pacific Community, as well as new programs 
being developed at the East-West Center with funding from NOAA.
    The United States should also help strengthen the region's 
economy through promotion of bilateral trade and investment, 
including encouraging the Pacific Agreement and Closer Economic 
Relations--that is a mouthful; in other words PACER--to provide 
maximum economic benefits to Pacific Island nations.
    On the difficult issue of Fiji, my own view, based on four 
trips there since the constitutional crisis last year, and 
extended discussions with all sides, is that U.S. engagement is 
absolutely essential. The countries problems are 
multidimensional, resulting from Fiji's unique colonial 
history, complex ethnic mix of indigenous Fijians and Indo-
Fijians, intra-indigenous Fijian chiefly, provincial and 
traditional rivalries among families and clans and districts, 
and religious disagreements.
    Clearly, the Australian and New Zealand policies of 
sanctioning, isolating and punishing Fiji have not only failed, 
but have been counterproductive. Indeed, with the travel bans 
that the two countries have imposed and their victories in 
excluding Fiji from key institutions of the region and beyond--
including their attempts to end Fiji's vital contributions to 
U.N. peacekeeping operations around the world--Fiji has moved 
ever closer to China.
    China has been more than willing to step in to provide soft 
loans, investments, and now even peacekeeping training for 
Fiji's military, at the same time as their tourists are heading 
to Fiji in even greater numbers.
    I understand that during her meeting with Pacific Island 
leaders Monday, Secretary Clinton spoke to Fiji's Foreign 
Minister about developing a bilateral dialogue. I encourage 
both sides to move forward expeditiously on such a dialogue. I 
would also encourage the exploration of new multilateral 
discussions with Fiji, perhaps through the Melanesian Spearhead 
Group or another venue in which Pacific Island nations take the 
lead.
    I wanted to note for the record it has been my privilege 
over the years to know one of Fiji's most outstanding citizens, 
among the first citizens of Fiji to graduate from Sandhurst, 
and who later became the leader of all Fijian military forces 
under the administration of the late Prime Minister, Ratu Maru. 
This gentleman was never in any way connected to the current 
interim government, yet when he applied to go to New Zealand to 
have both of his knees operated on, he was denied that 
opportunity simply because he was a former leader and community 
leader in Fiji. I am making reference to Mr. Paul Manueli. And 
as far as I am concerned, that was an absolute act of shameful 
and disgraceful for New Zealand to deny this prominent citizen 
of Fiji the privilege of going to have both of his knees 
operated on in New Zealand. And do you know where he had to go? 
He had to go to India to get the operation done. That is 
absolutely ridiculous.
    In engaging Fiji, we should recognize that the interim 
Prime Minister, Frank Bainimarama, has not altered the plans he 
outlined in his Strategic Framework for Change to draft a 
constitution reflecting the country's culture and history, to 
enact electoral reforms that will establish equal suffrage, and 
to hold free, fair, and democratic elections by the year 2014. 
In fact, he has reaffirmed that position over the past year, 
and personally, in my latest meeting with him in Fiji.
    On my last trip to Fiji in August, the chairman of the 
Strategic Framework for Change Coordinating Committee 
personally briefed me on the blueprint for implementing Fiji's 
plans for elections in 2014. The focus currently is on economic 
and social matters. In 2012, Fiji will take up the 
constitutional and electoral issues, with elections 2 years 
later.
    In my meeting with Prime Minister Bainimarama, during the 
trip, I suggested Fiji perhaps take up the constitutional, 
political and electoral reforms now rather than wait 2 years, 
and that perhaps our Government could give assistance in 
providing the proper and appropriate advice to give the 
committee, the examining committee, the opportunity to review, 
and what would be the best options available then for them to 
pursue eventually leading toward the election of 2014.
    I think we should take Prime Minister Bainimarama at his 
word when he says he wants to end Fiji's coup culture once and 
for all, and we should offer suitable resources to facilitate 
the reform of its electoral process, redraft its constitution, 
ensure successful elections, and build strong institutions 
capable of sustaining democracy and stability. Again, I do 
sincerely thank the administration for moving our policies in 
the Pacific in the right direction, and for providing essential 
assistance not only to my territory, but the countries that 
were affected by the tsunami and the earthquake.
    The witnesses with us here today have helped lay the 
foundation for progress in U.S.-Pacific relations, and now is 
the time to use that foundation to develop a sustained, robust, 
and comprehensive American approach to the Pacific Island 
nations.
    I would like to turn the time over now to my good friend, 
the gentleman from New Jersey, Mr. Smith, for his opening 
statement.
    [The prepared statement of Mr. Faleomavaega follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Chairman Faleomavaega, thank you very much for 
permitting me to sit in on your subcommittee, and I do 
appreciate it. You used the word ``courtesy.'' I think you 
define the word, so I want to thank you again for that. For 
years, I chaired the International Ops and Human Rights 
Committee, and you sat on that committee, and you never ceased 
in bringing attention and the spotlight to the Pacific Island 
nations, and you always reminded us of the other nations in the 
region that suffered so horrendously from the detonations by 
France of nuclear weaponry, which caused untold damage to 
people, the ecological damage that was done that continues in 
the region.
    Mr. Faleomavaega. Will the gentleman yield? I recall 
distinctly when President Chirac, then former President Chirac, 
decided to break the moratorium on nuclear testing, and decided 
that he wanted to explode eight more nuclear bombs in French 
Polynesia. I believe I was on the floor about 20 times trying 
to share this not only with our colleagues, but with the 
American people. Such a terrible decision by the country having 
the fourth largest arsenal of nuclear weapons. And they said, 
``Oh, we need to test eight more nuclear bombs in the Pacific, 
but not in France. As for the Pacific and the natives, the heck 
with them,'' they said. That is really the attitude that they 
took. It is okay to test the bombs in the Pacific, but not in 
France.
    But at any rate, I was on the floor about 20 times 
protesting the nuclear tests. And so when President Chirac 
appeared, I think in a joint session, I think 170 members 
decided not to join President Chirac for his speech. I felt 
that the whole world community was up in harms. But despite all 
of that, the reason for France to do this was to pay back the 
nuclear lobby for their support of the President. Now, that is 
about as critical a national security issue as I can think of. 
They decided not only to break the moratorium, but to explode 
more bombs, even though it was totally unnecessary.
    I thank the gentleman, and I also want to say for the 
record that you, sir, have always been the champion of the 
people whose human rights were violated. Whatever country, 
whatever region, wherever it is in the world, I consider you 
truly a friend of those whose rights have been severely abused. 
And anywhere in the world, my friend, Chris Smith, is always 
there, and I want to thank you for that.
    Mr. Smith. Thank you very much, Mr. Chairman. And I will 
say, and I say this strongly for the record as well, you are 
the undisputed leader for the Pacific Island nations, and they 
could have no better friend because I remember all those years, 
year in and year out, nobody else was paying attention to it, 
and you were, and you certainly rallied the members when Chirac 
was here to express our displeasure.
    So I thank you for that leadership. As we all know, my 
former chief of staff on the subcommittee was our first 
ambassador to East Timor, Joseph Rees, and we have shared many, 
many concerns and issues together with you on how to address 
the ongoing----
    Mr. Faleomavaega. And thanks to your leadership, we were 
able to pass a human trafficking law. As it so happens, I had a 
little problem in my own district with human trafficking, and 
we took care of that.
    Mr. Smith. As I think you know, the first prosecution--then 
I will yield back. But the first prosecution that occurred 
under the Trafficking Victims Protection Act was in your area. 
So that was in 2001, and that law is hopefully having a real 
impact, the Trafficking Victims Protection Act. Let me just say 
also, here to raise, Mr. Chairman, a very important issue--and 
I will be asking Assistant Secretary Campbell to address issues 
relating to the left-behind parents. I know it is not the 
immediate subject matter of today's hearing, but it has to do 
with Japan and the ongoing terrible human rights abuse of 
American children, 136 that we know of, that are registered 
with the State Department. And we are talking about obviously 
an issue where left-behind parents have been forcibly separated 
from their own children, and in many cases if they try even to 
make contact, certainly physical contact, they are in grave 
peril if they go to Japan to do so. And today or yesterday, but 
the vote will be today, the House will vote on a resolution, as 
I think you know, Secretary Campbell, that calls on Japan--it 
first condemns this situation. It is the strongest language we 
could have possibly put into a resolution because, frankly, the 
time is up. People are fed up, and the parents certainly, and 
the children are being hurt.
    We know that abducted children are hurt severely, 
psychologically, and in every other way. I know that you know 
that so very well. So time delay is denial, and those children 
are being, we believe, irreparably harmed in some cases. The 
resolution also calls for creating a mechanism by which the 
left-behind parents can be reunited with their children. We all 
know that, you know, this is not a custody issue. I remember 
when we were dealing with the David Goldman case, and even with 
these cases, some people in the press just say, oh, that is 
just a custody issue. No. Custody issues are decided in the 
place of habitual residence. This is abduction. This is 
kidnaping, and it is very, very severe, and it is a very 
significant human rights abuse.
    So I would hope, you know, I will have a few questions as 
we get to the Q&A part, and I look forward to your answers. And 
again, Mr. Chairman, thank you for having me on the panel, and 
I yield back.
    Mr. Faleomavaega. I thank the gentleman for his statement. 
And I just want to say that we are deeply honored to have with 
us this afternoon some very distinguished leaders representing 
the Obama administration. The gentleman to my extreme left is 
my good friend, Kurt Campbell, the Assistant Secretary for the 
Bureau of East Asian and Pacific Affairs. Secretary Campbell 
has served in this capacity since June of last year. Previous 
to that, he was the CEO and co-founder of the Center for the 
New American Security, concurrently served as director of the 
Aspen Strategy Group and chairman of the editorial board for 
the Washington Quarterly.
    Dr. Campbell has served in several capacities in 
government, formerly as Deputy Assistant Secretary of Defense 
for Asia and the Pacific, director on the National Security 
Council's staff, deputy special counselor to the President for 
NAFTA and the White House, and a former White House fellow at 
the Department of Treasury. And for his service, he received 
the Department of Defense Medal for Distinguished Public 
Service. He also co-authored several books and so many articles 
that it is difficult for me to read them all. The gentleman 
received his bachelor's degree from the University of 
California at San Diego, and also in musicology from the 
University of Erevan in Soviet Armenia. He received his 
doctorate in international relations from Brasenose College at 
Oxford University, where he was a Distinguished Marshall 
Scholar.
    The Principal Deputy Assistant Secretary of Defense, Mr. 
Derek Mitchell, was appointed in April 2009. Before that, Mr. 
Mitchell served as senior fellow and director of the Asian 
division of International Security Programs at the Center for 
Strategic and International Studies, having joined the center 
in January, 2009. Secretary Mitchell was the special assistant 
for Asian and Pacific affairs in the Office of the Secretary of 
Defense from 1997 to 2001. He served in various posts in Hong 
Kong, Taiwan, as well as Japan. He was also a senior director 
for the Philippines, Indonesia, Asia, Brunei, and Singapore.
    Mr. Mitchell received a master of arts degree in law and 
diplomacy from the Fletcher School of Law and Diplomacy, a 
bachelor's degree from the University of Virginia, studied 
Chinese language in Nanjing University in China and authored 
several books. I am very, very happy that he is able to join us 
this afternoon.
    Also with us is senior deputy assistant administrator for 
the Bureau of Asia at USAID, Dr. Frank Young. He currently 
leads the Asia Bureau of the U.S. Agency for International 
Development, and is currently acting senior deputy assistant 
administrator, and prior to this appointment, he served as a 
contractor working on the Quadrennial Diplomacy and Development 
Review. He is a 29-year veteran of the U.S. Senior Foreign 
Service. Dr. Young retired from USAID 5 years ago. He served as 
a senior expert for the Department of Defense partnership to 
cut hunger and poverty in Africa. And before his retirement 
from USAID, he served in a wide range of senior management 
positions in Ghana, as well as in other countries, the 
Philippines, in India, and other parts of Africa.
    Dr. Young holds a Ph.D. in comparative politics and a 
master of arts in diplomacy, all from the Fletcher School of 
Law and Diplomacy at Tufts University. He has a master's in 
science from the University of the Pacific in Stockton, and he 
taught at the War College where he is currently an adjunct 
faculty member.
    I tell you, you gentleman are so high-rank, I don't know 
what to do with you. But I do want to say sincerely, thank you 
for taking the time from your busy schedules to testify in our 
oversight hearing this afternoon. And at this time, I would 
like to have Secretary Campbell, if you could, begin. Without 
objection, all of your statements will be made part of the 
record. And if you have any additional materials that you would 
like to submit for the record, it will be done.
    I am beginning to feel like Ramses, it will be done, and it 
will be--Secretary Campbell, please proceed.

    STATEMENT OF THE HONORABLE KURT M. CAMPBELL, ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Campbell. Thank you very much, Mr. Chairman. It is an 
honor to be before you today and to be with my colleagues here. 
I want to thank you as a true son of the Pacific for all the 
commitment you have given to our nation and to this 
extraordinarily important region. I also want to thank, 
frankly, Congressman Smith for his comment, entirely 
appropriate. It is very important that we raise the profile of 
this issue. I was actually going to begin my statement by 
pointing out individuals, parents that I have gotten to know 
over the course of the last year. And I want to say a word 
about that, if you will allow me, before I go into my 
testimony. And I appreciate your interest not only in this 
matter, but in the important matters that we are discussing 
today in terms of the Pacific Islands.
    One of my responsibilities at the Department of State is to 
interact with this extraordinarily dedicated, patient, and 
frankly courageous group of parents. My first meeting with them 
was about a year ago. I went into the meeting. I was woefully 
ill prepared, did not understand the issues, did not understand 
the history. And I remember coming out of that meeting and 
saying, that is never going to happen again. I am never going 
to let this group of people and this issue down. And I have 
tried since then to work, put together a task force at the 
State Department, and generally raise our game in terms of this 
critical issue. And I would agree with everything you said, and 
I would go a step further, that in many respects these children 
have been unlawfully separated from their parents, and this is 
a result of Japan, our closest ally in the Pacific, not signing 
the Hague Convention, and it is a problem. And frankly, I stand 
with no one in terms of my strong commitment to Japan.
    I have worked my entire professional career on sustaining a 
strong relationship with Japan. We have raised this 
appropriately and responsibly at the highest levels last week 
in New York. We are going to need to see some progress on this 
issue. And so I thank you for your leadership on this. It is 
entirely appropriate to raise it. I just want to commend you 
for that, and for the extraordinary fortitude and persistence 
of these parents, who persist in an environment that I am not 
sure I could personally tolerate. And so I want to just tell 
you of my personal commitment to this issue, and I will do 
everything possible. I will be in Japan next week. I will raise 
it with all of my Japanese interlocutors, and I share your 
desire to see progress on this as we move forward. And I thank 
you and your colleagues for raising this issue to the attention 
of the U.S. Government and our Japanese friends.
    Let me just say a few things, if I can, Mr. Chairman. I 
would like to submit my full testimony for the record, so I 
don't need to go through it in great detail, if that is all 
right.
    Mr. Faleomavaega. Without objection.
    Mr. Campbell. Thank you. With me today is an enormously 
committed group of friends from the State Department. We are a 
small team. You know the Shakespearean, a few small, but the 
people who work on the Pacific Islands are truly dedicated 
professionals. They care deeply about the people of the 
islands. They care deeply about the American heritage there. 
And I have to say, no person more than you has helped us, both 
in terms of advice and suggestions and the occasional prodding, 
and sometimes that prodding is quite direct, but it is 
appreciated and sometimes necessary as we focus on these 
issues.
    I want to say generally, Mr. Chairman, we talk a lot about 
stepping up our game in the Asia Pacific region, but too often 
we focus on the A part of this and not enough on the P part of 
it, the Pacific part. And what we have seen over the course of 
the last generation is a systematic walking away from some of 
the critical commitments the United States has made, both in 
terms of blood and treasure, over generations in the Asia and 
Pacific region. And I think one of the things that we need to 
be very clear about, it is in the American strategic, moral, 
political, and economic interests to have a strong relationship 
with these island nations and the peoples of the Pacific. And I 
thank you for your leadership, and I ask that you continue it. 
It gives us heart and sustenance as we go forward.
    We have tried over the course of the last many months to 
step up our efforts. You have articulated several of those 
matters, and you have put a few ideas on the table, which 
frankly I think are excellent, which I would like to follow up 
with you on directly. But I just want to just say a few words 
of what we have accomplished to date.
    First of all, it was terrific to be with you a few months 
back in Vanuatu. I know neither of us really wanted to leave, 
it was so lovely there. We were there for the Pacific Islands 
Forum. I think, as you know, Mr. Chairman, you were an official 
guest, and next year we would like to see more Members of 
Congress at that session. And frankly, it was the largest 
multi-agency group we have ever brought to the Pacific. Very 
grateful to have my colleague and dear friend, General Gregson, 
with us, who has a particular interest in renewable energy and 
security issues in the Pacific, and he has followed up on many 
of the issues that he discussed when he was out there.
    I want to commit to you that I will participate and I will 
bring a similar delegation next year to New Zealand. We need to 
make this a regular feature of our diplomacy, and you will be 
pleased to know, Mr. Chairman, that at the end of the session 
on Monday with the Pacific Island leaders, Secretary Clinton 
committed to a yearly process of dialogue at the United 
Nations, where we will discuss issues of mutual concern and 
interest. And frankly, that was your idea, your suggestion, and 
we are grateful to be able to follow up on that.
    So our high-level diplomacy I think is in place. As you 
indicate, Secretary Clinton will be traveling to the Pacific in 
about a month. We will be going to Papua New Guinea and New 
Zealand and Australia. And I take on board your suggestion, and 
I will be back in touch with you about our final travel plans. 
But I just want to underscore our strong commitment to not only 
stepping up our diplomatic game in Asia, but in the Pacific as 
well.
    I also must say that all of the nations of the Pacific 
complimented us on our commitment to step up our game in terms 
of USAID, and I think Dr. Young will have more to say about 
that, and I am very grateful for the support and the strong 
interest at USAID for new and important programs in the 
Pacific. You will note that we are focusing more and more of 
our attention not just on health and education, which are 
critical components of the health of the societies of the 
Pacific, but increasingly on the challenges of climate change, 
not only on issues associated with the direct immediate 
impacts, but also on some of the specific issues associated 
with energy.
    What is interesting about the Pacific Island nations, no 
countries on the earth have a greater intensity of sunlight for 
potential uses for solar energy, but also for wind energy as 
well. No nations have a lower utilization rate. So there is 
almost a complete reliance on imported fuels and the like, and 
working with a variety of agencies inside the U.S. Government, 
we want to seek to take steps to reverse those trends.
    I must also say my general experience, Mr. Chairman, is of 
a close partnership with Australia and New Zealand, and that 
together we have been able to advance mutual interests on a 
whole host of issues. So I will have 1 minute or 2 on Fiji at 
the end, and I hear very clearly your concerns in this respect.
    We have a number of programs that are in play throughout 
the Pacific. I won't highlight all of them, but I will just 
refer to a couple, just to underscore our larger commitment. 
When we were both in Vanuatu, we had the chance to go via the 
road, the completed road, which was funded under-budget and 
ahead of schedule by the Millennium Challenge Corporation. We 
are seeking other opportunities for that kind of innovative 
program commitment in the Pacific. Despite the fact that these 
are very small nations, the bang for the buck is enormous. 
Overall, American per capita investment and aid assistance is 
comparable with any place in the world, and among any group of 
nations. And so we are proud of our overall commitment. I 
believe that one of the critical challenges for the United 
States, and indeed of other like-minded nations, is that much 
of the assistance that is flowing into the Pacific from a 
variety of countries and places, from Japan, from Australia, 
from New Zealand, from the United States, from the EU, from the 
multilateral development banks, and the international financial 
institutions is extraordinarily poorly coordinated, and we need 
a better mechanism that will allow us to make sure that 
critical health and other issues are dealt with, and that 
resources are used appropriately going forward.
    I thank you for your kind words on disaster relief. There 
is a lot of discussion about, you know, rising nations in the 
Asia and Pacific region. I will just point out by an order of 
magnitude the country that has stepped up in Indonesia after 
the tragic in tsunami, in Samoa, in the Philippines after the 
floods, in Vietnam, time and time again it has been the United 
States. So it is a little bit like who are you going to call 
when you have a problem. It is the United States. Our 
commitment to humanitarian assistance, to strategic engagement 
remains very strong.
    I also thank you for your kind words about innovative 
programs like Pacific Partnership. We heard last Monday from 
all the leaders how the visits of the hospital ships are--I 
want to thank my friend Derek Mitchell for his support for this 
particular program. The hospital ship spending a few days in 
port has a greater public diplomacy dimension than almost 
anything that we do. We have also put in place innovative 
programs like the Shiprider program. This is the largest 
expanse of oceans, the last basically unspoiled fishing stocks 
in the world. There is a lot of illegal activities underway in 
these oceans. It is impossible for the small, many 
impoverished, states to police these claims. Through the 
Shiprider agreements that the U.S. Navy and the Coast Guard 
have managed with a number of states, we have been able to 
assist them in policing these vast waters. We are looking for 
other ideas and suggestions, and indeed to increase the 
applicability of such programs going forward.
    So we are pleased with some initial steps, but we cannot 
pat ourselves on the back. We must recognize that we are in the 
very beginning stages of a recommitment in the Pacific that 
will take a year, perhaps decades. It must be bipartisan. We 
must recognize that this is in the strategic interests of the 
United States, and that when we have circumstances where big 
countries withdraw, it leaves uncertainty about the future in 
terms of directions of other kinds of engagement.
    I must also say that we face an enormous challenge with 
respect to Fiji. It is the center sort of architecturally of 
transportation and the like in the Pacific. I hear very clearly 
your instructions and your suggestions associated with 
dialogue, and you are correct that at the Pacific Leaders 
Forum, Secretary Clinton very graciously engaged the Foreign 
Minister and indicated that is a high on the American priority 
to figure out if there is a way that we can be helpful in 
engaging diplomatically. I must also say we are stepping up our 
coordination and dialogue with New Zealand and Australia, whom 
we also believe have key critical interests in Fiji as a whole.
    So we have enormous health challenges, climate change, 
problems of education, problems of poverty. We have done a lot 
in the region. We have concluded the compact with Palau. But we 
have much more to do. We look forward to working in close 
consultation and collaboration with our sister agencies, both 
at the Department of Defense--I want to commend, if I can, 
Admiral Willard and Admiral Walsh. Both of them have traveled 
widely in the Pacific. They are on the front lines of our 
engagement, and they have done a terrific job. And also, I look 
looking forward to working closely with our colleagues in USAID 
as they go forward in terms of their overall recommitment to 
the Pacific.
    I want to thank you again, Mr. Chairman. This hearing was 
your idea. Frankly, I can't remember the last time we have had 
such a hearing, too far in between sessions, and we stand ready 
to work closely with you and your colleagues on a strong, 
bipartisan executive legislative commitment in the Asia and 
Pacific region. Thank you.
    [The prepared statement of Mr. Campbell follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Mr. Secretary, and I deeply 
appreciate your testimony. Secretary Mitchell, for your 
statement.

STATEMENT OF MR. DEREK J. MITCHELL, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF DEFENSE, ASIAN AND PACIFIC SECURITY AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Mitchell. Thank you, Mr. Chairman. Mr. Chairman, 
Representative Smith, thank you for the privilege of appearing 
before you today, and thank you as well for your opening 
statements and for your work on behalf of the Pacific Island 
nations. Before I begin, let me add my voice to yours, Mr. 
Chairman, of respect and condolences to the people of American 
Samoa on the anniversary of the earthquake last year. I hope it 
does demonstrate that we will be there for the Pacific Island 
nations in their time of need, in the good times as well as 
bad.
    It should go without saying that as a Pacific nation, the 
United States has national interest throughout the entire 
Pacific Islands region. Guam, the Commonwealth of the Northern 
Mariana Islands, American Samoa, and the countries in the 
Pacific are all important U.S. partners and contributors to 
common security. The Pacific Islands region is often overlooked 
and undervalued, as you have stated, despite its enormous 
geography, rich fisheries, and unique geopolitical position.
    However, as there are significant DoD equities in the 
Western Pacific, we see a unique and important opportunity to 
reinforce U.S. defense engagement in the region. The region is 
becoming an increasingly valuable base for projecting U.S. 
military power into the Asia Pacific region. Aside from Guam, 
which gets much public attention nowadays, the department 
places high priority on the Freely Associated States with whom 
we have defense obligations under our respective compacts, the 
Republic of the Marshall Islands, Federated States of 
Micronesia, and Palau.
    The compact agreements assign to the United States full 
responsibility for defense of these states, and the DoD takes 
its bilateral defense relations seriously. We also value the 
rights afforded under the compacts, and will continue to defend 
these nations and exercise our right of strategic denial of 
third parties to operate in these states.
    At the same time, we should not forget that our defense 
commitment to the Freely Associated States plays an important 
role in the defense of our homeland here in return. The 
department continuously seeks creative ways to shape and 
influence the regional security environment. We believe we must 
have a sustained presence in the region in order to maintain 
political and military leadership in an evolving strategic 
environment.
    Our engagement in the Pacific Island region continues to 
focus on developing partner capacity and capability to improve 
maritime domain awareness through maritime surveillance, 
information sharing, joint patrolling, and infrastructure 
development. Currently, the U.S. has six cooperative maritime 
U.S. Coast Guard Shiprider agreements, as Secretary Campbell 
talked about, with Palau, Federated States of Micronesia, 
Republic of Marshall Islands, Kiribati, Cook Islands, and 
Tonga. These Shiprider agreements allow the Coast Guard and 
island law enforcement officers to embark on selected Coast 
Guard aircraft and vessels to help patrol the waters within 
U.S. exclusive economic zones, and in the 200-mile EEZs of 
participating Pacific Island states. While these Shiprider 
programs have been considerably successful, DoD is currently 
considering ways to expand these agreements to the U.S. Navy 
and to include other Pacific Island states.
    Overall, the department's security assistance efforts focus 
on three components: Maritime security, humanitarian assistance 
and disaster relief, and training opportunities. On the latter, 
the department deeply appreciates and will continue to consider 
Vanuatu's and Palau's offer to host U.S. military training. We 
also envision possible increased bilateral and multilateral 
training in Guam, CNMI, and the compact states.
    On maritime security and humanitarian assistance and 
disaster relief, the department, through the implementation of 
strategic engagement and security cooperation programs will 
continue to work to empower the Pacific Island countries to 
take responsibility into their own hands, building their 
capacity to address non-traditional security threats, such as 
illegal fishing and transnational crime, as well as respond 
effectively to natural disasters and defend their land and sea 
borders. At all times, we will work in partnership.
    Perhaps the department's most successful engagement tool 
has been humanitarian assistance programs. These programs 
include the Pacific Air Force's annual large-scale humanitarian 
mission Pacific Angel and Operation Christmas Drop, the largest 
running organized air drop in the world and one of the largest 
charity efforts in the Pacific.
    We will continue to build on the success and we understand 
the value of the U.S. Navy's Pacific Partnership program to 
operate medical and engineering projects in remote, underserved 
communities throughout the entire Pacific Islands region. We 
will take back the notion that you lay out of expanding this 
annually.
    As you stated, in August 2008, the Pacific Partnership 
medical personnel treated more than 15,000 locals in the 
Federated States of Micronesia. Pacific Action Team, based in 
Palau, comprised of 12 military personnel, will continue to 
coordinate a range of humanitarian and civic action projects in 
health, education, and infrastructure.
    We also look forward to working with these nations on 
broader international security initiatives. As you have stated, 
Mr. Chairman, our special defense relationship with the compact 
states allows for their citizens to serve in the U.S. Armed 
Forces. They serve at a higher per capita rate and fall at a 
higher per capita rate than American citizens, and serve in 
both Afghanistan and Iraq. A number of them have fallen 
alongside American troops on the battlefield. These nations 
should know that the Department of Defense recognizes their 
sacrifice, and is indebted for their enormous contributions to 
U.S. and global security.
    In conclusion, Mr. Chairman, the Department of Defense will 
continue to work alongside partners like Australia, France, 
Japan, and New Zealand to coordinate our security activities 
for this region, but we will not outsource our engagement. As a 
Pacific nation, the U.S. bears special responsibility to 
provide sustained and effective defense engagement to ensure 
peace and stability in the Asia Pacific. It is therefore 
imperative that the department continue to nurture existing 
relations with the North Pacific while deepening and expanding 
our defense and security bilateral and multilateral relations 
with the South Pacific.
    So I thank you, Mr. Chairman, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Mitchell follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Secretary Mitchell. Our Deputy 
Assistant Administrator for USAID, Dr. Young, please.

   STATEMENT OF FRANK YOUNG, PH.D., SENIOR DEPUTY ASSISTANT 
   ADMINISTRATOR, BUREAU FOR ASIA, UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Young. Thank you, Mr. Chairman. I have a statement 
which has been submitted, and I request it be included in the 
record.
    Mr. Faleomavaega. Without objection, all your statements 
will be made part of the record.
    Mr. Young. And I have brief oral remarks drawn from that 
statement, which I would like to deliver, with your permission.
    Mr. Faleomavaega. Please proceed.
    Mr. Young. Chairman Faleomavaega, Representative Smith, I 
am pleased to have this opportunity to present the U.S. Agency 
for International Development's views on renewed engagement in 
the Pacific. First, let me join my colleagues in thanking you 
for your passionate commitment to the region, and thank you for 
your leadership in focusing U.S. attention to the Pacific, a 
region of growing geopolitical importance to the United States. 
We share your commitment, and appreciate the opportunity to 
discuss our programs and strategies for strengthening our 
partnerships in cooperation with Pacific nations. I likewise 
join my colleagues in expressing condolences to the people of 
Samoa on the anniversary of the disastrous earthquake, and note 
that USAID stands ready to respond with other U.S. Government 
agencies in case such a disaster ever occurs again.
    From a development perspective, we know that nations in the 
Pacific are among the most vulnerable to the adverse effects of 
global climate change, as well as some of the least able to 
respond. We know these changes affect life and livelihoods in 
many countries in the Pacific, threatening catastrophic warming 
and resource-based instability. In the Pacific, climate change 
threatens the very existence of some island nations, and is, 
hence, the top priority for this region in this century. I 
associate myself with your remarks, Mr. Chairman, where you 
called it an existential threat, a sentiment echoed by the 
Secretary a couple of days ago.
    Many Pacific Islanders already experience the effects of 
sea level rise: More frequent storms due to climate change, and 
other extreme climate events that can impact water, coastal, 
and marine resources, and of course, agriculture. To try to 
avert the worst-case scenarios, USAID, in collaboration with 
the Department of State, is leading U.S. Government efforts to 
ensure that the least developed states in the Pacific region 
are better able to adapt to the changes in practical and life-
saving ways as they grow their economies.
    To make sure we focus our efforts appropriately, USAID will 
engage governments and residents in setting priorities and 
designing programs to address critical climate-affected needs, 
such as water catchments, mangrove conservation, crop 
adjustments to salt intrusion, and possibly land and migration 
impacts.
    In this fiscal year, 2010, we have $3 million for climate 
change adaptation work in the Pacific region, and the State 
Department has an additional $9 million that will be programmed 
in coordination with USAID. An additional $9.5 million in USAID 
funds for global climate change is proposed for Fiscal Year 
2011.
    I met earlier this month with Director General Jimmie 
Rogers of the Secretariat of the Pacific Community to review 
his ideas for advancing a shared effort on global climate 
change. Tomorrow, David Shepperd, director of the Secretariat 
of the Pacific Regional Environmental Program, will be 
reviewing SPREP's new 5-year strategy with our global climate 
change team at USAID. We expect these discussions to lead to a 
number of shared activities in the region.
    USAID has also noted threats to health represented by the 
very serious HIV/AIDS problem in Papua New Guinea. USAID has 
been notably active there, implementing a bilateral assistance 
program valued at $2.5 million a year that focuses on reducing 
that country's HIV/AIDS prevalence rates. Papua New Guinea also 
benefits from regionally funded programs to protect tropical 
forests, and with the Solomon Islands participates in USAID and 
Department of State funded Coral Triangle Initiative.
    USAID has also been active in responding to natural 
disasters in Papua New Guinea, the Solomon Islands, and Fiji, 
and is poised to do so in the Republic of the Marshall Islands 
and the Federated States of Micronesia. Since 1995, USAID has 
implemented the Pacific Islands disaster program, which aims to 
improve the disaster management ability of local and national 
disaster management agencies and individuals. And currently, 
USAID supports a full-time officer in Majuro to provide 
disaster preparedness, recovery, and reconstruction in the 
event that a disaster occurs in the Republic of the Marshall 
Islands and the Federated States of Micronesia.
    Looking forward, Mr. Chairman, USAID currently has a senior 
officer, a former USAID mission director, traveling in the 
Pacific region for 3 months to lay the groundwork for expanding 
our partnerships in the region to work on global climate change 
issues, and to examine opportunities to work with government 
and non-governmental organizations on health challenges in 
Papua New Guinea.
    I want to point out, Mr. Chairman, this is the first time 
in almost 15 years that we have a senior official from USAID 
traveling the region for this purpose. This official will also 
examine effective and appropriate ways to support and manage 
our activities in the region and he will report his findings to 
USAID by the end of this calendar year.
    Mr. Chairman, USAID remains committed to renewing strong 
partnerships in the Pacific region and to finding the most 
effective ways to develop and sustain these partnerships in 
light of the budget constraints faced by USAID and all 
government agencies. Our commitment to engage and intensify 
activities that address the significant challenges faced by 
nations in the Pacific region remains strong.
    We look forward to carrying out that commitment, and to 
working with Congress to ensure that our interests and those of 
the people of the Pacific region are well served. Thank you for 
the opportunity to appear before you today, and I look forward 
to your questions.
    [The prepared statement of Mr. Young follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Dr. Young. At this time, I 
would like to defer to my good friend from New Jersey for his 5 
minutes of questions.
    Mr. Smith. Chairman, thank you very much again for that 
courtesy. Secretary Campbell, thank you for your very strong 
words and your obvious empathy with the plight of the left-
behind parents. It is refreshing and encouraging, to say the 
least.
    I would just note for the record, Mr. Chairman, that 
several left-behind parents are here with us today, and one 
grandparent whose children are unlawfully detained in Japan, 
and that includes Patrick Braden, whose daughter Melissa was 
abducted; Commander Paul Toland, whose daughter Erika was 
abducted; Chris and Amy Savoie, Isaac and Rebecca; Captain 
Lake, Mary Victoria; Douglas Berg, Gunnar and Kaisuke; and 
Nancy Elias, who is a grandmother of Jane and Michael Elias. 
Michael Elias is a decorated veteran of Afghanistan. She is 
here as well. And I just want to say very briefly that none of 
these people live in my district, and I think it underscores 
the fact that so many of us are rallying behind them, most of 
them who do not have somebody from our own districts, because 
this could be any one of us. And once you meet--and I know you 
have that same feeling, Mr. Secretary. Once you meet one of 
these individuals and hear them tell their story--when Patrick 
Braden walked into my office after the David Goldman case got 
some visibility--and I was very involved with that--we sat 
down, and he told his story, and I was almost in tears because 
I have a daughter named Melissa. And you begin thinking, what 
if that were me. Except for the grace of God, there goes any 
one of us. And then he said, would you join us at the embassy 
of Japan for a very dignified protest, very silent. It was a 
prayerful protest. And out came a birthday cake for little 
Melissa, and we sang ``Happy Birthday.'' And we couldn't even 
get a meeting with the ambassador. You know, we called, I 
tried, and, you know, frankly, it is not all that hard to meet 
with an ambassador. But there was this arm's length approach 
that was being taken.
    Again, Japan is a great friend, a great ally with whom we 
have so much in common. So it is bewildering, to say the least, 
how they are mistreating American children, 136 that we know 
of, in over 90 cases. You know, in the case of the Eliases, I 
met them at a rally for David Goldman. They felt so left 
behind. Here is a case where the wife--you know, the judge 
says, you can't have--you know, surrender the passports. So she 
apparently goes to another consul, gets passports, and takes 
off with those two children. I mean, that is such a violation 
of all things diplomatic, and certainly international law and 
U.S. law, and I wish Japanese law.
    So just a couple of very brief questions. Secretary 
Campbell, you have indicated that child abduction cases have 
been raised to first tier priority, and if you could speak to 
that, that would be helpful. Secondly, do you believe that 
pressing to resolve the cases with U.S. arrest warrants 
sidestep the battle that obviously is going on within the 
Government of Japan? Because obviously there is a debate going 
on. Our hope is that it comes down fourscore on the side of 
resolving these cases, and joining the international consensus.
    I mean, the Hague Convention has been with us for decades. 
it would seem to me that it is about time, you know--and I say 
that knowing--I work very closely with UNHCR, a former high 
rep, who is Japanese. She gets it with people who are 
separated. How is it that the Government of Japan doesn't get 
it with kidnaping or child abduction. At both the G8 meeting in 
Ontario as well as last week at the United Nations, did 
President Obama raise the issue with Prime Minister Kan? And if 
you can reveal anything that he said, it would be very, very 
helpful and encouraging. So did he raise it before, and did he 
raise it last week?
    And finally, is there any thought being given of putting 
together some parents to meet with the foreign ministry people? 
You know, seeing is believing. You can't sit for 5 minutes with 
a left-behind parent without your heart just coming out of your 
chest for them. And again, and I can't stress this enough, 
child abduction is child abuse. We all know it. The evidence is 
compelling that when there is a child abduction, that boy or 
that girl or those siblings are severely hurt. The information 
on that couldn't be more clear. So if you could answer those 
questions, I would deeply appreciate it.
    Mr. Campbell. Thank you very much, Congressman. And I 
frankly had the same sense that you did, and the more I have 
been involved in this issue, the more I believe it is one 
that--really it is one of our first tasks at the State 
Department, is the protection of our citizens. And I believe 
that this is a group of people that have not received the 
support that they need to, either from our Government, but also 
from the Government of Japan. And so I am committed to this, 
and I will try to answer your questions as best I can.
    It has been raised at very high levels. I am not going to 
go into great detail, but I will say the meetings that I am 
most familiar with are those with Secretary Clinton, and she 
has raised them very purposefully with her counterparts. I will 
say that the former minister of foreign affairs, Minister 
Okada, was a very strong supporter, and helped us enormously 
inside the Japanese Government. And I will say that the new 
government has a different attitude on these issues, and I 
think personally I see progress, but we need to see that 
progress both increase and move more rapidly over the course of 
the coming months.
    One of our biggest problems has been an educational issue 
in Japan, frankly. I find that when I interact with colleagues 
and friends inside Japan, the lack of knowledge or sometimes 
the wrong views or not a very clear picture of this issue 
pervades. It is very much in our interest to try to reverse 
that, to increase the profile, and to humanize this problem. I 
think sometimes the left-behind parents are not well understood 
in Japan. Japan is a deeply compassionate society. And 
remember, the original marriages here were often as a 
consequence of a merger between our two cultures.
    I want to make sure that Japanese colleagues and friends 
know more about this issue because I am convinced that once 
they do, they will have a similar sense that both you and I 
have. I think there are some common sensical steps that we can 
take. I also believe that we need to go beyond simply the Hague 
Convention. It is not clear how that would apply to previous 
cases, and I think we have to address those. I think we also 
have to address them urgently.
    You have your experiences; I have mine. I met a father who 
had not seen his daughter for 16 years. And again, I don't know 
how you go on in some respects. So, yes, we owe it to them, and 
we have to do more. We have, as I said, put together a task 
force inside our U.S. Government that works on this, much more 
consequently than we had before. I was disappointed again, as I 
said, in my own performance and some of my own colleagues. We 
will not let that happen again, and we raise it at every 
opportunity with our Japanese interlocutors.
    I am looking forward to including some high-level people in 
that group going forward. We will be discussing this with a new 
Japanese Foreign Minister next week in Tokyo. I will say at 
this juncture I would give this a little bit more time at the 
diplomatic level. I think that you are seeing some signs of 
movement. And I will just give you one example, if I could 
quickly, and I am sorry to go on so long, Congressman Smith.
    One of the longest running issues between the United States 
and Japan has been the prisoner of war issue. The men who 
survived the Bataan death march and then worked as almost slave 
labor, frankly, in a number of Japanese factories during the 
latter part of the Second World War. It had been impossible to 
find a way forward on this, and I will just tell you, after 
some very good work by some young officers at the State 
Department, for the first time a group of prisoners of war now 
in the twilight of their lives, late 80s, went to Japan 2 weeks 
ago and received a formal apology from the minister of foreign 
affairs.
    Mr. Smith. My father was combat veteran in New Guinea, and 
saw some very terrible things. So he has passed on, but he 
would appreciate it. I do have to run and vote. It is actually 
on the resolution. We debated it yesterday; it is being voted 
on now. If you could answer, did Obama raise it?
    Mr. Campbell. Congressman, I think it would be best--we are 
encouraged not to speak directly about the private discussions 
between the President and other leaders. It is a matter of 
record because the Secretary in her outbrief has indicated that 
it was raised with Foreign Minister Okada. I think I will leave 
it at that, if I could. Thank you.
    Mr. Smith. Thank you.
    Mr. Faleomavaega. Thank you, Congressman Smith. I do have 
some follow-up questions for our witnesses, and I appreciate 
your patience. Hopefully, we can get this out of the way so you 
can return to your important work in your respective offices.
    Secretary Campbell, you have given an overview of our 
policy toward the Pacific region. As you know, for the last 20 
years, I have been a lonely witness crying in the forest to try 
to get Washington to pay a little more attention to the Pacific 
region. And I do want to say thank you again, for the record, 
to you and Secretary Clinton for the important decision that 
you made, after 15 years of USAID absence, that now that this 
is coming back as a reality.
    I remember distinctly when we decided to remove USAID from 
the Pacific. It was because of the new East European countries 
that were coming in, and we needed more resources to get them 
settled, and our embassies established along with and our 
diplomatic relationships. I think there were about 15 new East 
European countries, including countries in Central Asia, as 
well as in Eastern Europe. So it was quite understandable; we 
know that.
    Secretary Campbell, in your overview of the Pacific, in 
terms of the changes that have occurred, do you see a real 
danger of the United States losing its influence in this region 
if we don't pay more attention to the problems affecting the 
island nations?
    Mr. Campbell. Honestly, Mr. Chairman, I do, I do, and I am 
concerned by that. And I think it would be fair to say that 
several of the leaders last week or earlier this week in the 
sessions with Secretary Clinton spoke of travels far afield to 
the Middle East, other Asian capitals. They are being courted 
quite aggressively. It is not a secret. If you look at the 
voting records of groups of nations, no group of nations votes 
more with the United States than the Pacific Island nations 
historically, none. More than Europe, more than Latin America, 
more than Asia. And it is extremely important that we not take 
these islands for granted, diplomatically, politically, 
strategically.
    And so I think benign neglect has its consequences. And 
power dynamics are changing in the Asia and Pacific region, and 
so I think that is a factor that comes to play here. However, 
we don't want to see an environment of, you know, seeing the 
Pacific as a chessboard. That is not the right way to think 
about the Asia Pacific region. We have strong historical, 
moral, and other reasons, health, economic, to be involved 
overall.
    But the truth is, this is a group of nations that wants to 
be closer with the United States. They study in our 
universities. They serve in uniform in our armed forces. They 
play on our football teams, you know well, sir. I think with a 
remarkably modest investment, we can have enormous dividends. 
And so we are not asking here for dramatic changes. We are 
asking for some specific steps that can be taken that will have 
enormous dividends for the United States.
    Mr. Faleomavaega. I appreciate that. One of the critical 
issues that now seems sometimes forgotten in terms of our 
overall foreign policy toward the region--I make particular 
reference to Micronesia. As you know, in the mid-1970s, the 
situation in Micronesia was critical. So we took the initiative 
in negotiating these compact of free associations with these 
three distinct Micronesian entities, the Federated States of 
Micronesia, the Republic of Palau, and the Republic of the 
Marshall Islands.
    Immediately following World War II, what we did was just 
simply told the United Nations that they were a strategic trust 
as far as the United States was concerned. And they became our 
little back yard, as we told the United Nations and the Soviet 
Union, ``Hands off.'' Uncle Sam is putting its imprint here, 
and that we are to have this special relationship with these 
island entities in Micronesia.
    At the time, when we organized the Congress of Micronesia 
and all these other things, we were accused by the former 
Soviet Union of colonialism. But in the process, we then turned 
to negotiating successfully these compacts of free association. 
And part of the relationship, in terms of the negotiation 
process, was that these island nations were willing to be part 
of our overall defense against potential enemies or adversaries 
that we might have to face in the future.
    You know we got kicked out of Subic Bay and Clark Air Force 
Base on the Philippines, and so it became more critical than 
ever that Micronesia, especially Guam, as it currently is, one 
of our strongest military presences on that island. But Palau, 
the Marshall Islands, and the Federated States of Micronesia 
were also part of that equation. I know that there has been a 
lot of media, and even by some of our friends in the 
administration from previous administrations looking at saying 
that we are giving a lot of money to these compact republics, 
and to the point where we become a little micromanaging in 
terms of some of the things that these island countries really 
need.
    The point I wanted to make is that we sometimes have 
conveyed the view that we must administer their programs, that 
we need to look into every little crevice to figure out the 
problems that they have. And then we expect to make decisions 
on their behalf. I am concerned about that.
    I do want to thank you, Secretary Campbell, for your 
leadership in working through the negotiations with our friends 
from the Republic of Palau, as we discussed in Vanuatu. Of 
course, the President and members of his delegation brought to 
my attention some of their concerns about the negotiations. I 
just wanted to share with you some of these concerns that my 
friends in Palau have conveyed to me, that inflation adjustment 
in the compacts is currently in place for the Marshalls and 
also for FSM, but it is totally absent for Palau.
    I would deeply appreciate if you could revisit the issue of 
inflation adjustment. If it is good for the Marshalls and FSM, 
I don't understand why it would not be good also for Palau to 
have a similar type of convention or assistance. Also, on the 
question of the postal service programs that are currently 
being provided for Palau, I would really appreciate your review 
again of the issue. Perhaps we can re-explore that issue with 
our friends from the Republic of Palau.
    There is also the question of periodic audits, again as a 
service that our Government provides for the Marshalls and the 
FSM, but not for Palau. I think the problem we have here, Mr. 
Secretary, is if it is good for FSM and the Marshalls, why 
shouldn't it be also good for Palau? And I am not suggesting 
that Palau has got 50 million people. I mean, there are 
probably less than 20,000 people there. And I don't think a 
periodic audit is going to be so complicated a service that 
perhaps you can work in making improvements on that.
    On the issue of the Marshall Islands, I believe that our 
friends in the Department of Defense need to look at the issue 
of OTEC. I think OTEC has been pursued for a good number of 
years by our friends from the Marshall Islands. We have already 
launched a couple of OTEC power generation systems from the 
ocean. As I had discussed this issue with some of our friends 
from the Marshalls, it is a very expensive technology.
    But I believe we are doing this in Diego Garcia now. The 
military is doing this, and if it was possible to do it in 
Diego Garcia, maybe Mr. Mitchell can help me with this. Maybe 
something similar could also be done in Kwajalein, where some 
12,000 people live in Ebeye, probably the most densely 
populated place on this planet. I would appreciate a comment 
from Mr. Mitchell concerning the OTEC program. Is that really a 
serious issue that our friends in the Defense Department can 
pursue?
    Mr. Mitchell. Thank you, Mr. Chairman, for that. The 
Department of the Navy, I know, is very, very serious on this 
issue. They are--they view the issue of energy security as 
essential to national security, particularly in the island 
states, recognizing the cost prohibitiveness of other sources 
of energy, the normal sources of oil and such. So they are 
doing intense investigation into the commercial viability of 
this ocean thermal technology.
    They have found in fact that in Diego Garcia, it was not 
such, and they have terminated that project in Diego Garcia. 
What they are looking to do is have a demonstration project in 
Pearl Harbor by 2017. So they are--this is something I think 
you can talk to the Navy directly about. I would sort of defer 
to them on this. They are, though, very seriously looking at 
it, but just have found that the cost and the commercial 
viability in the near-term simply isn't there.
    Mr. Faleomavaega. As I had mentioned, I did visit the OTEC 
pilot program in Kona, on the big island, where they draw cold 
water from 3,000 to 4,000 feet. And the benefit derived from 
the OTEC technology is that it not only produces water, but 
also provides electricity. These are two components that are 
critically needed in a place like the Marshall Islands, where 
they have no mountains, and no mountains, no moisture, and no 
moisture, no rain, and so has a limited amount of water in 
their capacity. And their hope is that OTEC will provide these 
very important resources, if OTEC technology can be done.
    As I have suggested to them, it is a very expensive 
technology, not only to maintain, but even to have around. But 
that being the deal with the Department of the Navy, we will 
have to pursue that continually.
    Dr. Young, again I thanked Secretary Clinton and Secretary 
Campbell for sharing with us the Secretary's decision. Maybe 
you can help me even with something further. Is USAID still 
independent from the State Department in its operation? Because 
it always seems to be a running battle for all the years that I 
have known that our foreign policy stays with the State 
Department, and that our USAID assistance programs is somewhat 
of an independent semi-independent agency where it doesn't 
necessarily follow the politics. Can you enlighten me on this? 
Are you still independent or semi-independent from State and 
Secretary Clinton's authority?
    Mr. Young. It is a difficult question for me to answer, Mr. 
Chairman. I am actually perhaps not the best person to direct 
this question to. The administrator of USAID does report to the 
Secretary of State. The Secretary of State is in charge of all 
U.S. foreign policy. And Administrator Shaw is her chief 
advisor on issues involving development.
    Mr. Faleomavaega. You say chief advisor, but not chief 
administrator.
    Mr. Young. He administers the USAID program, sir, yes. He 
does the USAID program. But----
    Mr. Faleomavaega. So who does he take orders from?
    Mr. Young. We all take orders from the President, Mr. 
Chairman. But he works under the guidance and direction of the 
Secretary of States.
    Mr. Faleomavaega. Guidance and direction?
    Mr. Young. Of the Secretary of State. But he also provides 
recommendations to the Secretary of State on the best 
alternatives and options for pursuing the President's 
initiatives in development, particularly as laid out in the 
President's recent Presidential Policy Directive (PPD) on 
global development that was released last----
    Mr. Faleomavaega. So you say that the administrator of 
USAID is entitled to give his own opinion directly to the 
President?
    Mr. Young. Not necessarily, sir. He does talk to the 
President, sir, as does the Secretary. But he works in close 
cooperation and close consultation with the Secretary.
    Mr. Faleomavaega. I am a little concerned, Dr. Young, 
because I have been thinking about your statement, every word, 
every phrase.
    Mr. Young. I know you have.
    Mr. Faleomavaega. Every comma. And I noticed that you said, 
we are going to have a presence in the Pacific, but not 
necessarily offices, even though we have said publicly----
    Mr. Young. Right.
    Mr. Faleomavaega [continuing]. We are going to have offices 
in Port Moresby and Suva. Can you enlighten us as to exactly 
what USAID is going to do?
    Mr. Young. Thank you, Mr. Chairman, I would. As you know, 
in the congressional budget justification for Fiscal Year 2011, 
USAID proposed to open an office in the South Pacific, 
presumably in Suva. That proposal is in our Fiscal Year 2011 
request to Congress. The nature and the timing of it is going 
to depend on the appropriation that USAID receives. We are 
already enhancing our engagement in the South Pacific and in 
the Pacific region, as I mentioned in my testimony. We have a 
senior foreign service officer spending 3 months there 
traveling and visiting each of the partner countries that we 
are proposing to do programming with, particularly in the area 
of global climate change, meeting with governments, with 
regional organizations, and with private sector partners. He 
will be returning shortly after Thanksgiving, and we expect a 
report from him by the end of the year.
    We expect that he will be able to give us a lot more detail 
about what is the best approach to enhance our engagement 
consistent with our commitment to engage in a more robust set 
of activities in the Pacific. How we do that right is under 
intense discussion within USAID. We are committed to an 
enhanced presence. I think we have already demonstrated that 
through this gentleman's trip. But the exact timing and the 
nature is going to depend on the appropriation we receive.
    Mr. Faleomavaega. Dr. Young, with all due respect, our 
friends, the People's Republic of China, have already announced 
$600 million in assistance programs for these island nations, 
$600 million in soft loans, grants, assistance, whatever it is, 
and we are diddling over whether or not we should have USAID 
conduct a study for 3 months? I could have told the gentleman. 
He didn't even have to go to the Pacific. Tell me. I have been 
sitting here for 20 years babbling my mouth off asking where is 
USAID when it is so critically needed for these island 
countries?
    So we are going to study and study and study, continuing 
studying the programs until when? How long is this going to be?
    Mr. Young. Mr. Chairman, his mission goes beyond studying. 
It is to frame some of the programs that we will actually 
implement beginning in 2011. He needs to come back, and should 
come back, with specific designs that he has come up with in 
consultation with the partner governments and regional 
organizations. And I am discussing some of those with Mr. 
Rogers and the gentleman that will be coming tomorrow from 
SPREP, so that we can put the flesh on these bones and get the 
programs started in 2011.
    Mr. Faleomavaega. I might suggest, Mr. Young, the bones are 
already there. You just completed a $50 million embassy, a new 
embassy, in Suva, Fiji. So you don't need to build another 
building, if that is what you are concerned about. You can even 
house two or three staffers right now in that huge embassy that 
we have in Suva. I am very concerned because when this 
announcement was made by Secretary Clinton, I would say that it 
was received with a positive response by Pacific Island 
countries. But now, and with all due respect--this is nothing 
personally against you--I am hearing a different tone. You are 
saying, ``Well, yes, we are going to be present there, but we 
don't know how much presence we are going to have.''
    My concern, Dr. Young, is that we don't need to study this. 
We know the problems there. You could have asked Secretary 
Campbell. You could have asked me. You could have asked DoD. 
What are the needs of these island nations? We don't need to 
study it again. I can tell you right now without even having to 
talk to your friend that has taken 3 months to do this study.
    Now, may I ask you, this friend of USAID who is doing this 
3-month study, is he familiar with the Pacific? Has he worked 
on Pacific issues?
    Mr. Young. I believe he served very briefly in the Pacific, 
but this would have been back when we still had an officer 
there through the mid '90s.
    Mr. Faleomavaega. So in other words, he is getting on-the-
job training himself.
    Mr. Young. He is also a very professional officer, Mr. 
Chairman, who has been a mission director in several other 
countries and knows how to frame and develop programs.
    Mr. Faleomavaega. What is your best recommendation in terms 
of how much money USAID plans to put into these two offices, 
both in Port Moresby and Suva, I assume?
    Mr. Young. The request to Congress for Fiscal Year 2011, 
Mr. Chairman, is $12 million, $9.5 million, or approximately $9 
million, for climate change and adaptation, $2 million to $2.5 
million for HIV/AIDS, and $1 million for disaster----
    Mr. Faleomavaega. So a $58-billion proposed budget for the 
State Department, and only how much for USAID to do its 
programs?
    Mr. Young. Over a 2-year period, as the Secretary stated, 
approximately $21.5 million; for Fiscal Year 2011, it is 
approximately $12 million, but that is from USAID itself.
    Mr. Faleomavaega. I am not trying to suggest that we 
compete with the resources that China is putting in to help the 
Pacific Island countries. But you know, Mr. Young, with all due 
respect, we are going to be the laughingstock of the Pacific. 
It is a joke.
    Mr. Young. Mr. Chairman, I take your point strongly. We are 
doing our best to ramp up as quickly as possible, within the 
budget constraints that we face, and all of us will face in the 
government. I agree with your premise, and I think my statement 
makes that clear. I will definitely take your message back to 
the agency as we continue our internal deliberations.
    Mr. Faleomavaega. Please, Dr. Young. A $900-million embassy 
that we just built in Baghdad, and in return, we are just going 
to give $12 million to help these island countries. I am not a 
mathematician, Dr. Young, but I sincerely hope that our friends 
in USAID are going to be a little more serious about this 
issue. Maybe we never should have announced that we were going 
to the Pacific. Of course, I have been screaming bloody murder 
about this issue for the last 20 years.
    Mr. Young. Yes.
    Mr. Faleomavaega. Fifteen years since we left, maybe that 
might be a better way of saying it. Well, I am very concerned. 
I realize that with the budget cutbacks in the $3.8 trillion 
proposed budget, it is a matter of priorities. We are trying to 
consider seriously where we need to cut, and what essential 
services.
    Maybe Mr. Mitchell and Mr. Campbell can help me on this. I 
just don't see the logic in all of this that we have announced 
that USAID is coming, but now we call it a presence, without 
necessarily following up seriously with having people in place 
to do the programs.
    Care to comment on that, Mr. Mitchell? Do we need a USAID 
presence in the Pacific? Maybe you don't. Maybe Dr. Campbell 
may have a different view, too, on this.
    Mr. Mitchell. To be honest, I should probably defer on 
that. We certainly need a presence on the military side and the 
defense side.
    Mr. Faleomavaega. Let me give another----
    Mr. Mitchell. A very comprehensive----
    Mr. Faleomavaega. Let me give you a perspective. I remember 
when we were negotiating these Micronesian compacts. And with 
all due respect, when the question of Micronesia was 
considered, former Secretary of State Henry Kissinger comes up 
with a statement concerning Micronesia over whether it really 
is in our interest. Do you know what he said? There are only 
90,000 people. Who gives a damn?
    If that is the attitude that we continue to have by our 
Government leaders toward these Pacific Island countries and 
their needs, then is it any wonder then they say, well, maybe 
we need to seek elsewhere if the benevolence of this great 
country, America, just doesn't seem to have sufficient 
resources to assist us? Secretary Campbell, do you care to 
comment on that?
    Mr. Campbell. First of all, thank you for your commitment 
and passion on this issue, if I could, Mr. Chairman. Let me say 
at our session last week--sorry again, earlier this week with 
Secretary Clinton, every one of the leaders and Foreign 
Ministers and others raised the issue of the USAID commitment. 
And it was frankly very welcome. I was very pleased.
    I will tell you that Dr. Young is extremely committed to 
the Asia and Pacific region. I believe he is taking very 
careful notes. I think he has heard--I think we have heard very 
clearly your very strong views on this. And I think we will 
take this back, and I look forward to reporting back to you 
very, very soon on the direction ahead. I think that is fair, 
isn't it?
    Mr. Young. Yes, absolutely.
    Mr. Faleomavaega. Gentlemen, please don't take this as a 
personal attack on your leadership and service. I realize that 
we must have priorities in how we are going to cut the pie, and 
competing interests come from all different parts of the world. 
And it is not an easy task, I realize that. But I am at a loss 
over whether USAID is actually going to be giving any form of 
assistance to these island countries.
    What would be your view if we are going to end up spending 
another year-and-a-half still studying the situation, Dr. 
Young?
    Mr. Young. Mr. Chairman, I don't see us taking another 
year-and-a-half to study the situation. I expect the programs 
will be obligated and commitment and people on the ground 
working during Fiscal Year 2011. This gentleman's efforts in 
the field right now are to put concrete programs together that 
can be either contracted out or grants or assistance provided 
so that we can move resources into place where they need to be 
moved.
    Mr. Faleomavaega. Can you share with us examples of the 
kind of programs that USAID currently provides?
    Mr. Young. From the Fiscal Year 2010 appropriation, we do 
not have any programs yet operating on the ground, except for 
the HIV/AIDS program.
    Mr. Faleomavaega. No, no. What I mean is a laundry list of 
programs that USAID currently engages in in dealing with 
different regions. Let us take Asia as an example. I am sure 
USAID has a large presence there.
    Mr. Young. Oh, absolutely, sir. We have missions in 13 
countries, but we also oversee programs in 12 other countries 
where we don't have presence. I can provide you complete 
digests and lists for the record, Mr. Chairman.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Please.
    Mr. Young. I don't have that with me.
    Mr. Faleomavaega. Please, without objection, sir, that will 
be provided for----
    Mr. Campbell. Can I ask you one thing, Mr. Chairman?
    Mr. Faleomavaega. Please.
    Mr. Campbell. One of the things that we have heard very 
clearly from you and others--and I think the truth is that we 
have raised some expectations here, and we have heard the 
applause. And now it is going to be very important that the 
United States takes steps to ensure that there isn't a letdown. 
And there have been a lot of letdowns in the Pacific, and I 
think Dr. Young and I and Mr. Mitchell hear very clearly your 
views and the views of others on this, and we commit to work 
closely with you to make sure that we have a way forward that 
follows through on the kinds of things the United States has 
already announced.
    Mr. Faleomavaega. I might also add, Dr. Campbell, that in 
terms of raising expectations, a gentleman by the name of 
Barack Obama was born in the Pacific. He was born in the state 
of Hawaii. Every Pacific Islander somehow has a sense of 
affinity with him saying, ``Hey, he is one of us. He was born 
in the Pacific.'' You know what I also say? He is the first 
President of the United States who at least knows where the 
Pacific Ocean is. And I say this was somewhat of a satire, to 
the extent that he literally was born and raised in Hawaii, 
despite all the birthers that go around saying that he was born 
either in Kenya or in Indonesia. I remember distinctly 2 years 
ago, there was a national blog saying that I was a special 
agent of Barack Obama who went to Indonesia, which I did; 
attended the school that he went to; which I did; and that my 
mission from Barack Obama was to make sure there was no record 
whatsoever indicating that he was born in Indonesia. And I 
said, wow, that is one way to make yourself famous, by being an 
agent of Barack Obama to get rid of any records suggesting that 
he was born in Indonesia. Of course, Kenya also seems to be the 
other place they are always coming up with.
    I sincerely hope that given his Pacific experience of being 
born and raised on an island community that he does have a 
sense of appreciation for what island people go through. I 
don't want to compare the state of Hawaii with the issues 
affecting or confronting a lot of the Pacific Island nations 
because those nations don't have the resources readily 
available to our friends in the state of Hawaii.
    Dr. Campbell, on the Chinese presence in the Pacific. I 
remember a couple of years ago, one of the Assistant 
Secretaries of State testified before my subcommittee, and he 
had expressed very serious concerns about the checkbook 
diplomacy that China and Taiwan were conducting throughout the 
Pacific. And I said, wait a minute. What about the billions of 
dollars in cash that we ended up giving to the Iraqis that we 
could not even account for? So we are accusing China and Taiwan 
of checkbook diplomacy. What about cash diplomacy where we 
cannot even account for what we did in Iraq?
    My concern is that China is also a Pacific nation. And 
these countries work closely with China because of China's 
willingness to give the kind of resources and assistance that 
these countries need. And the unfortunate situation is that the 
question comes back to me as someone representing our national 
Government, over what the United States is doing about this.
    Well, I must say that it is somewhat embarrassing that we 
haven't been doing very much. And I deeply appreciate, Dr. 
Campbell, your assessment in saying that we have not been doing 
very much. And I think also in line with it has always been our 
conventional policy to lean and depend almost entirely on 
whatever New Zealand and Australia tell us what to do because 
then we depend on New Zealand and Australia and their resources 
to give whatever foreign assistance programs that they can 
give. And I suppose that also represents our form of giving or 
giving assistance, which I think our island leaders are a lot 
more astute in understanding what is really going on here.
    And I don't want to put China and these island countries as 
a yo-yo, making it a political football as to who is going to 
be the higher bidder in giving assistance to these countries. I 
don't think that is what the island leaders want themselves. 
But the fact of the matter is, if we are not there, then you 
give them little choice but to deal with the realities of who 
they need to deal with, just as it is true with many of our 
friends and countries in Southeast Asia, Northeast Asia, and 
Central Asia. If they don't see any presence or any seriousness 
of commitment coming from our own Government, then they will 
have to make decisions accordingly in dealing with China.
    Now, one of the ironies, Dr. Campbell, is that while there 
seems to be some sense of concern from our friends in 
Australia, telling these island countries to be careful of 
China, and yet they had a free trade agreement with China 
exporting billions of dollars in minerals and all of that. It 
kind of makes the island leaders say, ``Are we that stupid, 
seeing what you guys are really trying to do here?''
    I wanted just to share that with you, the feedback I get 
from some of our island leaders in meeting with them. Of 
course, they are not going to come out openly and tell you 
these things, Dr. Campbell. But I just want to pass them along. 
I am just the messenger. I think we honestly really do need to 
do a better job than what we have been. And again, Dr. Young, I 
am not trying to beat up on you. But, please, I just wanted to 
get better assurances that we are not just going to have 
presence in these island countries, but we are going to be 
there, lock, stock, and barrel, with whatever assistance that 
is needed.
    Now, is it staffing that you are having problems with? Let 
me know. I will be happy to make recommendations of some 
excellent people who are not necessarily U.S. citizens who can 
help us. The secretary of the Pacific Commission has done an 
excellent job in identifying so many of the various programs 
and issues that these island countries are confronted with so 
seriously, not just climate change. My gosh, not just climate 
change.
    The problem of our fisheries and the tuna industry alone, 
which my own little territory is totally impacted by. Our 
expertise and the problems of seabed minerals. We are the only 
country that has not signed on to allow the Sea Convention. I 
remember a couple of years ago, I think a Norwegian firm was 
contracted by the Cook Islands government to conduct a survey 
of what is contained on the seabeds of some 3 million square 
miles of EEZ zone belonging to the Cook Islands. And as a 
result of that survey, they found out there is approximately at 
least over $200 billion worth of manganese nodules contained in 
the seabeds of the Cook Islands, whose population is less than 
20,000 people. I don't know if you are getting my message here, 
Dr. Young. Don't look at numbers to think that that is the 
basis of how we are going to deal with these island countries. 
If 31 percent of the entire earth's surface is contained among 
these 15 island countries, I think we ought to pay a lot more 
attention to them. Just looking at the population numbers, 
Papua New Guinea with 7 million, and then the populations are 
so spotty, I realize, that they don't have the numbers as far 
as people. But they are human beings nevertheless. And I just 
think what a tragedy it would be, that with all the tremendous 
amount of resources, the technology and knowledge in our 
universities and colleges, that if we are able to host some 
690,000 foreign students attending American colleges and 
universities, you would think it might be possible USAID could 
do the same in getting more Pacific Island students to attend 
our colleges and universities.
    I have always been very curious as to why the Fulbright 
Scholarship program has not been very successful to the extent 
that we are not giving enough opportunities to those island 
students who could get better training than they are getting 
now.
    Gentlemen, I know I have talked a lot. But I just wanted to 
share those concerns with you. Assuming I get reelected in 
November, you are going to see my ugly face again here in this 
podium. I don't know what is going to happen come November, but 
I do want very much to thank the three of you for being here. 
Dr. Campbell, I do want to thank you. We just held a hearing 
about 2 weeks ago on West Papua. And please convey that message 
also to Secretary Clinton that we just sent a petition letter 
to the White House, to President Obama, and it was signed by 50 
Members of Congress expressing our very serious concerns about 
not only human rights violations, but the lack of real 
attention by the Indonesian Government toward giving special 
autonomy or more autonomy to some 2.2 million West Papuans. A 
sad, sad commentary not only of our own involvement, but 
complicity with the United Nations that these people were never 
given the opportunity for self-determination, as it was given 
to the people of East Timor a couple of years ago.
    I want to share that concern with you, Secretary Campbell. 
I sincerely hope that we will continue the dialogue. Again, 
thank you for your interest in wanting to engage and to 
dialogue the interim government leaders, Prime Minster 
Bainimarama and his people. I know there have been some serious 
doubts expressed about the upcoming elections of 2014. Again, 
just in good faith and absolute confidence that we will hold 
the election. And if not, we will cross that bridge.
    I just cannot see how any other way can justify otherwise 
that we don't do these reforms and all of this, and I was there 
personally to see Prime Minister Bainimarama, and I believe he 
is very earnest and sincere in what he is trying to do in 
meeting those goals and having that national election come 
2014. If I live that long, I would like to see that.
    But again, gentlemen, I want to thank you for your 
patience, and I sincerely hope that we will continue this 
dialogue and see what comes next after the elections. Thank you 
very much, gentlemen. The hearing is over.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>UAE Embassy statement deg.
                               __________

      Material submitted for the record by the Honorable Eni F.H. 
  Faleomavaega, a Representative in Congress from American Samoa, and 
 Chairman, Subcommittee on Asia, the Pacific and the Global Environment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Amb. Schifter statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
